No. 19-730
In the Supreme Court of the United States
____________
DeRay Mckesson, Petitioner
v.
John Doe, Respondent
____________
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit
____________
Brief of Amicus Curiae National Police
Association Supporting Respondent
____________

January 8, 2020

James Bopp, Jr.
Counsel of Record
Richard E. Coleson
Corrine L. Youngs
Amanda L. Narog
THE BOPP LAW FIRM, PC
The National Building
1 South Sixth Street
Terre Haute, IN 47807
812/232-2434 (telephone)
812/235-3685 (facsimile)
jboppjr@aol.com
Counsel for Amicus Curiae

Question Presented
Petitioner presents the following question:
Do the First Amendment and this Court’s decision in NAACP v. Claiborne Hardware Co., 458
U.S. 886 (1982), foreclose a state law negligence
action making a “leader” of a protest demonstration personally liable in damages for injuries
inflicted by an unidentified person’s violent act
there, when it is undisputed that the leader neither authorized, directed, nor ratified the perpetrator’s act, nor engaged in or incited violence of
any kind?
Cert. Ptn. (i).
Amicus curiae National Police Association argues
that (i) the First Amendment does not protect against
tort liability for the reasonably foreseeable consequences of one’s own negligent, illegal, and dangerous
activity that poses a risk of serious harm to others and
(ii) police officers need tort protection from such illegal
activity and serious harm.

(i)

Table of Contents
Table of Authorities . . . . . . . . . . . . . . . . . . . . . . . . (iv)
Interest of Amicus Curiae . . . . . . . . . . . . . . . . . . . . . 1
Summary of the Argument . . . . . . . . . . . . . . . . . . . . 1
Argument . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
I.

The First Amendment does not protect
against tort liability for the foreseeable
consequences of one’s own negligent, illegal, and dangerous activity posing a risk
of serious harm to others. . . . . . . . . . . . . . . . . 2
A. Claiborne involved limiting the liability
on those engaged in lawful activity for
the unlawful acts of others, not the foreseeable consequences of one’s own illegal
acts at issue here.. . . . . . . . . . . . . . . . . . . . 3
B. Claiborne does not preclude liability for
foreseeable consequences of one’s own
illegal acts. . . . . . . . . . . . . . . . . . . . . . . . . . 5

II.

Police officers need tort protection from
negligent, illegal, and dangerous activity
posing foreseeable serious harm to them.
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
A. The violent and illegal activity associated
with the Baton Rouge protest, in the
broader context of the violent and illegal
activity associated with other similar protests organized and led by Black Lives
Matter and DeRay Mckesson, created a
reasonably foreseeable risk of harm to
Officer Doe. . . . . . . . . . . . . . . . . . . . . . . . . 11
(ii)

B. The Fifth Circuit’s decision makes clear
that the First Amendment does not protect unlawful or violent conduct. . . . . . . . 14
C. A contrary rule would harm police officers, the public, and the rule of law. . . . . 15
Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

(iii)

Table of Authorities
Cases
Abdullah v. Cty. of St. Louis, 52 F. Supp.3d 936
(E.D. Mo. 2014) . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Ahmad v. City of St. Louis, No. 4:17 CV 2455
CDP, 2017 U.S. Dist. LEXIS 188478 (E.D. Mo.
Nov. 15, 2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Black Lives Matter-Stockton Chapter v. San
Joaquin Cty. Sheriff's Office, No. 2:18-cv00591-KJM-AC, 2018 U.S. Dist. LEXIS
130115 (E.D. Cal. Aug. 2, 2018)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
NAACP v. Claiborne Hardware Co., 458 U.S. 886
(1964). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
San Diego Branch of NAACP v. Cty. of San Diego,
No. 16-CV-2575 JLS (MSB), 2019 U.S. Dist.
LEXIS 13375 (S.D. Cal. Jan. 25, 2019) . . . . . . . 14
Constitutions, Statutes, Regulations & Rules
S. Ct. R. 37 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
U.S. const., amend. I . . . . . . . . . . . . . . . . . . . . passim

Other Authorities
Associated Press, Man convicted of shooting two
officers during Ferguson protest, Los Angeles
Times, Dec. 9, 2016, https://www.latimes.com/
nation/nationnow/la-na-ferguson-shooting20161209-story.html . . . . . . . . . . . . . . . . . . . . . . 11

(iv)

KARE 11 staff, Officer suffers spinal fracture during I-94 shutdown, KARE 11 News, July 10,
2016, https://www.kare11.com/article/news/officer-suffers-spinal–fracture-during-i-94shutdown/89-268434384. . . . . . . . . . . . . . . . . . . 12
Jason Lange & Lauren Hirsch, Three Countries
Urge Caution Traveling to U.S. Amid Protests,
Violence, July 10, 2016, https://www.reuters.
com/article/us-usa-police-travelidUSKCN0ZQ0RM . . . . . . . . . . . . . . . . . . . . . . . 13
Trey Schmaltz, WBRZ, FBI Warns of Safety Concerns for Public, Law Enforcement This Weekend, July 8, 2016, https://www.wbrz.com/news/
fbi-warns-of-safety-concerns-for-public-lawenforcement-this-weekend/. . . . . . . . . . . . . . . . . 13
Christine Wang, Obama: All Americans Should
Be Troubled By Recent Police Shootings,
CNBC, July 7, 2016, https://www.cnbc.com/
2016/ 07/07/president-barack-obama-ondeaths-of-philando-castile-and-altonsterling.html . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

(v)

Interest of Amicus Curiae1
The National Police Association is a Delaware nonprofit corporation founded to provide (i) educational
assistance to supporters of law enforcement and (ii)
support to individual law enforcement officers and the
agencies they serve. The National Police Association
seeks to bring issues of importance to the forefront to
facilitate remedies and broaden public awareness.

Summary of the Argument
The First Amendment does not protect against tort
liability for the reasonably foreseeable consequences of
one’s own negligent, illegal, and dangerous activity.
This Court did not hold otherwise in NAACP v. Claiborne Hardware Co., 458 U.S. 886 (1964). Claiborne
involved a lawful boycott (and various accompanying
activities), in which certain persons (but not all) engaged in violent activity, and a state court held the
whole boycott illegal, based on the violent acts of some,
and imposed liability on all involved.
Given First Amendment protections, this Court in
Claiborne had to separate constitutionally protected
activities and persons from those not protected. In that
context, this Court held that those not engaged in illegal acts could not be held liable for others’ illegal acts,
1

Rule 37 statement: All parties gave written consent to
filing this brief; counsel of record received timely notice of
intent to file; no counsel for any party authored it in whole
or in part; no party counsel or party made a monetary contribution intended to fund the preparation or submission of
this brief; and no person other than amicus or its counsel
funded it.

2

based on their speech, unless the person authorized,
directed, or ratified the perpetrator’s act, or engaged in
or incited violence itself. But here the issue is whether
the First Amendment protects one from ordinary tort
liability for the reasonably foreseeable consequences of
one’s own negligent, and illegal activity, and Claiborne
did not find First Amendment protection for that. In
fact, Claiborne recognized protection for peaceful, lawful activity, not for unpeaceful, unlawful activity of the
sort at issue here. (Part I.)
A contrary rule would encourage negligent, unpeaceful, and illegal behavior at the expense of others
and, in particular, would expose law enforcement officers to serious harm that tort liability is intended to
discourage. (Part II.)

Argument
I.

The First Amendment does not protect against tort
liability for the foreseeable consequences of one’s
own negligent, illegal, and dangerous activity posing a risk of serious harm to others.
When a demonstration that is lawful and peaceful,
and thus constitutionally protected (as expression, association, assembly, or petition), transforms into an
unlawful, unpeaceful, and dangerous activity—with
participants unlawfully moving onto a highway, blocking traffic, confronting police trying to clear the highway, looting a store for objects to throw at police, and
throwing objects at police2—does the First Amendment
2

Slip op. 2-3. Citations are to the Fifth Circuit’s December 16, 2019 slip opinion, which withdrew, and substituted
for, the August 8 opinion in the Petition Appendix. See

3

protect the leader of that illegal activity from the reasonably foreseeable consequences of his own negligent,
illegal, and dangerous activity under ordinary tort law?
No. This is so because (inter alia) (A) Claiborne involved liability on those engaged in lawful activity for
the unlawful acts of others, not the consequences of
one’s own illegal acts at issue here, (B) Claiborne does
not preclude liability for the foreseeable consequences
of one’s own illegal acts, which are beyond First
Amendment protection, and (C) a contrary rule would
harm police officers, the public, and the rule of law.
A. Claiborne involved limiting the liability on those
engaged in lawful activity for the unlawful acts of
others, not the foreseeable consequences of one’s
own illegal acts at issue here.
Claiborne involved a unique problem and solution
not at issue here. The problem was that a state court
had “concluded that [an] entire boycott was unlawful,”
due to the presence of “‘force, violence, or threats’” by
“‘certain of the defendants,’” but not all, and so imposed liability on lawful and unlawful defendants alike
among those involved in certain roles and activities in
the boycott. 458 U.S. at 895 (citation omitted). This
was an overbroad remedy given the presence of some
activity protected by the First Amendment.

http://www.ca5.uscourts.gov/opinions/pub/17/17-30864CV1.pdf. The Fifth Circuit’s use of Amended Complaint
allegations is appropriate because amendment was deemed
futile under Claiborne, which doesn’t control, so leave to
amend should be granted. Slip op. 5.

4

The solution required the Claiborne Court to make
two sets of distinctions. First, it had to separate activities protected by the First Amendment from activities
not so protected. As discussed in Part I(B), it found
that peaceful, lawful activity that falls within First
Amendment categories (expression, association, peaceful assembly, petition) is protected, but unpeaceful,
illegal activity is not protected—even if it includes
some speech, association, assembly, or petition.
Second, the Claiborne Court had to separate those
engaging in peaceful, lawful (and so constitutionally
protected) activities from those doing unpeaceful, unlawful (and so constitutionally unprotected) activities.
In separating the lawful from the unlawful, the
Claiborne Court provided precise guidelines to protect
the lawful from liability for the acts of lawbreakers. In
that context, Claiborne held that the lawful are not
liable for the illegal actions of others unless they “authorized, directed, or ratified specific tortious activity,”
and even then liability would be limited to the consequences of that specific activity. Id. at 927. However,
those engaging in illegal activity that causes harm
may be held liable: “Unquestionably those individuals
may be held responsible for the injuries that they
caused; a judgment tailored to the consequences of
their unlawful conduct may be sustained.” Id. at 926
(emphasis added).
This case involves the foreseeable consequences of
Petitioner DeRay Mckesson’s own illegal actions, not
his speech or advocacy. As a result, the legal consequences of his illegal activity is not shielded by the
First Amendment and is not protected by Claiborne.
Here Mckesson led a previously lawful protest onto a

5

public highway for the purpose of “rioting,”3 and this is
when the serious harm to Respondent Doe occurred for
which Mckesson would be held liable. Consequently, it
does not involve the Claiborne situation where a person was engaged in peaceful, lawful, and constitutionally protected First Amendment activity and the government (by law) sought to make that innocent person
liable for the illegal acts of others. Claiborne does not
control on this fundamental difference alone.
B. Claiborne does not preclude liability for the foreseeable consequences of one’s own illegal acts.
Claiborne made clear that one may be liable in tort
for the reasonably foreseeable consequences of one’s
own illegal acts by holding that (i) unpeaceful, illegal
acts are not protected by the First Amendment and (ii)
those engaged in unlawful acts are liable for the conse3

For example, as the Fifth Circuit described some of the
facts alleged in the Amended Complaint (which at this
stage must be accepted as true with all favorable inferences
to Officer Doe), Mckesson “was the prime leader and an
organizer of the protest,” he “led the protestors to block the
public highway,” slip op. 2-3 (citation omitted), he then “led
protestors down a public highway in an attempt to block the
interstate,” “the protestors followed,” id. at 11, and “he
knew he was in violation of the law and livestreamed his
arrest,” id. at 12. In his presence, “some protestors began to
throw full water bottles, which had been stolen from a
nearby convenience store,” and he “did nothing to prevent
the violence or calm the crowd, and ... ‘incited the violence.’”
Id. at 2-3 (citation omitted). Moreover, he “traveled to Baton
Rouge ‘for the purpose of ... rioting.’” Id. at 19 n.9 (emphasis
added by Fifth Circuit) (citing Amended Complaint). Of
course, Claiborne made clear that “riot[ing]” lacks First
Amendment protection. 458 U.S. at 912.

6

quences of their own illegal actions.
Regarding the scope of First Amendment protection,
Claiborne made clear that, even if activity involves
expression, association, assembly, and petition, it is
only protected if it is peaceful and lawful. Unpeaceful,
unlawful activity is unprotected even if it is accompanied by, or associated with, expressive activity, e.g.,
chanting slogans while breaking the law. The First
Amendment provides no protection for illegal activity.
So if, as alleged here, a “demonstration” illegally goes
onto a public highway and becomes a “riot,” those involved lose all First Amendment protection. And that
is the end of any Claiborne and First Amendment constitutional analysis: Absent First Amendment protection, there is no basis to interrupt the ordinary workings of state tort law imposing liability for negligence.4
Of course, Claiborne repeatedly emphasized that
protests there were peaceful and lawful, e.g, it began
by “not[ing] that certain practices generally used to
encourage support for the boycott were uniformly
peaceful and orderly.” 458 U.S. at 903 (emphasis
added). “The few marches associated with the boycott
were carefully controlled by black leaders.” Id. (empha4

The Fifth Circuit found that Officer Doe “plausibly alleged” the elements of tort negligence, slip op. 10-12, so
under ordinary rules his “claim for relief is sufficiently
plausible to allow him to proceed to discovery,” id. at 12.
And if the allegations are proven, Mckesson would be liable
for Officer Doe’s serious physical, economic, and other injuries resulting from being struck in the face by a rock or
piece of concrete hurled by a participant in the demonstration that turned into an alleged riot with objects being
hurled at police and in which Mckesson was seen and heard
to be giving orders that others followed. Id. at 10.

7

sis added). “The police made no arrests—and no complaints are recorded—in connection with the picketing
and occasional demonstrations supporting the boycott.”
Id. This Court repeatedly emphasized that “peaceful”
activity had First Amendment protection. Id. at 908
n.43 (right “‘peaceably to assemble’”), 909 (“assemble
peacefully” and “peaceful march and demonstration”),
910 (“peaceful pamphleteering”), 912 (not “through riot
or revolution”). And state “power to regulate economic
activity” does not include “a comparable right to prohibit peaceful political activity.” Id. at 913 (emphasis
added). So that is the sort of activity protected by the
First Amendment. But that “peaceful” and “carefully
controlled” activity is a far cry from the activity at issue here, alleged to be a “riot,” which Claiborne excluded from constitutional protection. The activity here
was neither peaceful nor lawful, so it lacks First
Amendment protection.
Furthermore, even in the context of peaceful, lawful
protests protected by the First Amendment, Claiborne
made clear that violence and threats of violence associated with those protests lack First Amendment protection. Id. at 916. So states may “impos[e] tort liability
for ... losses ... caused by violence and ... threats of violence.” Id.
Of course, states may impose reasonable time,
place, and manner restrictions on speech, and speech
outside those lawful restrictions lacks constitutional
protection. Baton Rouge permissibly barred occupying
highways, which meant that even lawful speech would
be unprotected there, so the activity in the street was
constitutionally illegal and lacked First Amendment
protection.
The alleged negligence here flowed from this illegal

8

activity: “Officer Doe adequately alleged that Mckesson
is liable in negligence for organizing and leading the
Baton Rouge demonstration to illegally occupy a highway.” Slip op. 23. “[T]he basis of potential liability in
this case is Mckesson’s actions and conduct in directing
the illegal demonstration, not his speech and advocacy.” Id. at 16 n.7.
Finally, Claiborne expressly said that states may
impose tort liability for one’s own tortious acts and the
reasonably foreseeable consequences thereof. For example: “No federal rule of law restricts a State from
imposing tort liability for business losses that are
caused by violence and by threats of violence.” 458 U.S.
at 916. That was in the context of paragraph discussing the lack of First Amendment for violence and
threats of violence, so those actions were the focus of
this statement (as was much of Claiborne’s discussion
since violence was particularly at issue there). But the
doctrine that one is not protected from tort liability by
the First Amendment for one’s own illegal acts (which
may include violence and threats of violence) emerges
clearly in this statement, and that doctrine is not restricted to violence and threats of violence.5 This is
clear from this Court’s often use of “unlawful” where
the “precision” that this Court required, id. at 916,
would require the use of “violence” to establish a rule
that only extended to unlawful action that is violent or
threatens violence. For example, Claiborne said that
“[o]nly those losses proximately caused by unlawful
conduct may recovered.” Id. at 918 (emphasis added).
5

The Fifth Circuit establishes why this “Court did not
invent a ‘violence/nonviolence’ distinction.” Slip op. 15-18
(citing the dissent’s view).

9

And it distinguished situations where it said no liability could be imposed from “whether an individual may
be held liable for unlawful conduct that he himself authorized or incited,” with the understanding that liability can arise for “unlawful,” not just violent, acts. Id. at
920 n.56 (emphasis added).
In sum, because Mckesson’s own activity at issue
here was not his speech or advocacy, but rather his
unpeaceful, illegal, and dangerous activity, it lacks
First Amendment protection, which ends the analysis.
And Claiborne also indicated that liability for the reasonably foreseeable consequences of one’s own unlawful activity is not precluded by the First Amendment.
From the foregoing, it is clear that the relevant6
analysis of Judge Willett’s dissent, slip op. 25-43 (concurring in part, dissenting in part), is erroneous—as
the Fifth Circuit majority establishes, slip op. 15-18.
Essentially, the dissent believes Claiborne “creat[ed] a
broad categorical rule” that shields persons engaged in
unpeaceful, illegal, and dangerous activity that poses
a reasonably foreseeable risk of serious harm from tort
liability for their own actions if they are in a context
that also involves First Amendment protected activity
6

Judge Willett makes some arguments that are not relevant here, such as questioning tort liability under state law,
slip op. 26-32, though the issue here is whether the First
Amendment under Claiborne bars this challenge given the
majority’s conclusion that Officer Doe does state a claim
under state tort law. Amicus focus only on the Claiborne
argument. And Judge Willett disputes reliance on facts
from the proposed Amended Complaint, slip op. 34-35 &
n.37, though the majority and amicus believe such reliance
is proper because the “futility” basis for denying leave to
amend was based on an erroneous reading of Claiborne.

10

—unless they actually authorized, directed, or ratified
a perpetrator’s particular violent act. But as the majority notes, this analysis relies on a purported “violence/
nonviolence distinction” that is based on a misreading
of Claiborne. Slip op. 15-18. The distinction is actually
based on the “chancery court opinion that grounded
liability in nonviolent protest,” while the Mississippi
and U.S. Supreme Courts “grounded liability solely in
the presence of ‘force, violence or threats,’” slip op. 15
(citation omitted), which is why Claiborne talked about
violence and threats thereof, slip op. 15. That Claiborne was not creating the purported violence/nonviolence distinction is clear because (i) Claiborne “makes frequent reference to unlawful conduct
when, under the dissent’s view, it should have spoken
of violence,” slip op. 15 (citations omitted), (ii) “[t]his
supposed ... distinction ... does not square with the case
law,” slip op. 16 (citation omitted), (iii) “recent cases
[do not] vindicate this understanding,” slip op. 17 (citation omitted), and (iv) “the ... distinction does not make
sense,” slip op. 17-18.

II.
Police officers need tort protection from negligent,
illegal, and dangerous activity
posing foreseeable serious harm to them.
Police officers need the tort protection at issue because (inter alia) (A) harm to police officers from such
activity is reasonably foreseeable, (B) the First Amendment does not protect one’s own unlawful or violent
conduct, and (C) a contrary rule would harm police
officers, the public, and the rule of law.

11

A. The violent and illegal activity associated with the
Baton Rouge protest, in the broader context of the
violent and illegal activity associated with other
similar protests organized and led by Black Lives
Matter and DeRay Mckesson, created a reasonably
foreseeable risk of harm to Officer Doe.
When a protestor threw the rock-like object at Officer Doe’s face, Doe was “knocked to the ground incapacitated.” Slip op. 3. Officer Doe suffered a host of serious
physical and financial injuries, including “loss of teeth,
jaw injury, a brain injury, a head injury, lost wages,
‘and other compensable losses.’” Id. While this incident
may seem isolated, similar violent activity has been
associated with illegal protests that have routinely
followed many police-involved shootings of minorities
across the country, and have, with repetition, resulted
in serious and severe physical and pecuniary losses to
police officers doing little else but protecting and serving the public. These catastrophic consequences have
not been limited to Officer Doe alone, but rather have
been visited upon police officers across the United
States who are fulfilling a vital service to their communities.
On August 9, 2014, Michael Brown was shot and
killed by a Ferguson, Missouri police officer. Over the
next two weeks, protests quickly turned into riots during which local businesses were both looted and set
ablaze, resulting in millions of dollars in damage. Police officers tasked with protecting the public had bottles and rocks thrown at them, and more than 200 protestors were arrested in the first two weeks of unrest.
These riots continued for more than a year, eventually
leading to the shooting of two police officers. Associated
Press, Man convicted of shooting two officers during

12

Ferguson protest, Los Angeles Times, Dec. 9, 2016,
https://www.latimes.com/nation/nationnow/la-naferguson-shooting-20161209-story.html.
Following the police-involved death of Freddie Gray
in Baltimore, protests devolved into rioting, leading to
the injury of twenty police officers in the course of their
official duties. Am. Compl. ¶ 5.7 During the chaos in
early April of 2015, approximately 300 businesses were
damaged, over 200 vehicles and structures were set
ablaze, almost thirty stores were looted, and 250 rioters were arrested for their conduct. Just days before
Officer Doe was attacked, alongside the continued riots
in Ferguson, similar violent protests sprang up around
the country through the concerted efforts of Mckesson
and his Black Lives Matter organization: in St Paul,
Minnesota, twenty-one officers were injured when rioters hurled chunks of concrete and other dangerous projectiles at police, and in one instance, a protestor
dropped a concrete block on an officer’s head, breaking
his neck; in Dallas, five officers were killed and nine
were injured when a lone gunman opened fire on the
police during a Black Lives Matter protest; and four
Tennessee highways were blocked by Black Lives Matter protesters, leading to six arrests. Am. Compl. ¶¶
18, 20, 22; KARE 11 staff, Officer suffers spinal fracture during I-94 shutdown, KARE 11 News, July 10,
2016, https://www.kare11.com/article/news/officersuffers-spinal-fracture-during-i-94-shut7

Amended Complaint citations herein are to the proposed Amended Complaint for Damages: Police Officer Hit
in Face with Rock, which is in the Fifth Circuit record document titled Appellant Officer John Doe’s Record Excerpt at
55-72 (No. 17-30864).

13

down/89-268434384.
Given the context and events surrounding the Baton Rouge protests, the attack on Officer Doe was eminently foreseeable. The roiling tensions between activists and police had become a national focus, and media
coverage of these conflicts dominated the headlines.
Even then-President Barack Obama emphasized the
fact that “Americans should be troubled by the recent
shootings” stating “‘[t]hese are not isolated incidents.
They’re symptomatic of racial disparities that exist in
our criminal justice system.’” Christine Wang, Obama:
All Americans Should Be Troubled By Recent Police
Shootings, CNBC, July 7, 2016, https://www.cnbc.com
/2016/07/07/president-barack-obama-on-deaths-ofphilando-castile-and-alton-sterling.html. The risk was
so great to police officers nationwide that the FBI New
Orleans office issued a warning emphasizing potential
“threats to law enforcement and potential threats to
the safety of the general public,” stemming from the
violent protests. Trey Schmaltz, WBRZ, FBI Warns of
Safety Concerns for Public, Law Enforcement This
W e e k e n d ,
J u l y
8 ,
2 0 1 6 ,
https://www.wbrz.com/news/fbi-warns-of-safetyconcerns-for-public-law-enforcement-this-weekend/.
And on the same day Officer Doe was injured, three
foreign governments urged caution when traveling to
the United States amid the protests. Jason Lange &
Lauren Hirsch, Reuters, Three Countries Urge Caution
Traveling to U.S. Amid Protests, Violence, July 10,
2016, https://www.reuters.com/article/us-usa-policetravel-idUSKCN0ZQ0RM.
But despite this obvious and known risk, Mckesson
nonetheless organized a protest in the heart of an angry Baton Rouge, and lawlessly lead a group of protest-

14

ers onto a highway while broadcasting himself live on
the Internet. In the midst of this maelstrom of protestors clashing with police, one protestor threw a heavy
projectile at Officer John Doe, severely injuring him,
That injury was not merely foreseeable; it was inevitable.
B. The Fifth Circuit’s decision makes clear that the
First Amendment does not protect unlawful or violent conduct.
Just as this incident is but one in a string of protests organized by Black Lives Matter and Mr.
Mckesson that turned violent, this case is not the first
attempt to entice a court to find that the First Amendment protects unlawful, and even violent activity, undertaken during a political protest. But the First
Amendment offers no such refuge to illegal conduct
merely because it occurs in association with speech.
Several legal actions have been brought by those
protesting purported police misconduct that claim immunity from arrest for unlawful acts because these
were in association with protests. See, e.g., Black Lives
Matter-Stockton Chapter v. San Joaquin Cty. Sheriff's
Office, No. 2:18-cv-00591-KJM-AC, 2018 U.S. Dist.
LEXIS 130115, at *5 (E.D. Cal. Aug. 2, 2018); Ahmad
v. City of St. Louis, No. 4:17 CV 2455 CDP, 2017 U.S.
Dist. LEXIS 188478, at *2 (E.D. Mo. Nov. 15, 2017);
San Diego Branch of NAACP v. Cty. of San Diego, No.
16-CV-2575 JLS (MSB), 2019 U.S. Dist. LEXIS 13375,
at *21 (S.D. Cal. Jan. 25, 2019); Abdullah v. Cty. of St.
Louis, 52 F. Supp.3d 936, 943 (E.D. Mo. 2014). But as
Claiborne made plain, the First Amendment does not
shield a protester from liability for illegal conduct separate and apart from any speech and expression.

15

Officer Doe does not seek to hold DeRay Mckesson
accountable for his speech or expression, but rather for
his illegal actions leading a protest unlawfully onto a
public highway and the reasonably foreseeable risk of
harm to police officers that illegal activity occasioned.
The Fifth Circuit’s decision correctly construed this
Court’s prior precedent and did nothing more that emphasize that the lawful exercise of speech and assembly is protected by the First Amendment and that unlawful, unpeaceful and violent conduct is not. That
clarification was necessary and proper given the misconception of many litigants of the extent to which the
First Amendment affords protection to individuals in
the area of political protest.
C. A contrary rule would harm police officers, the
public, and the rule of law.
Given that Mckesson’s activity was illegal, unpeaceful, and dangerous, a finding that such activity is protected from tort liability by the First Amendment
would harm police officers, the public, and the rule of
law because it would (i) eliminate valuable tort protection and (ii) impose a rule that would lead to broad
societal harm in this and similar situations.
First, the loss of tort liability for negligence in this
and similar cases would be very harmful. Such liability
plays a vital rule-of-law role that should be preserved
here and in similar situations. It discourages negligent
activity, making even those unconcerned for others
think twice about, e.g., leaving snow on walkways, because of the risk of liability. And one who leads angry
people onto a public highway, closing the highway and
forcing a confrontation with police, should think twice
before engaging in such illegal and dangerous activity

16

because of the risk of liability. The prudent choice
would be to lead those protestors onto the sidewalk or
other legal, safe, non-obstructing place.
Second, tort liability also assigns losses where they
belong—on the wrongdoer, not the victim or the public.
That is simple justice. Neither Officer Doe nor the government should absorb the damages for Officer Doe’s
injuries if a finder of fact determines that the injuries
were a reasonably foreseeable consequence of Mckesson’s own negligent act in leading the protest onto the
highway.
The Petition erroneously reads Claiborne as imposing a broad rule, applicable here, that immunizes persons engaged in unlawful activity from liability for the
consequences of such illegal activity if this activity also
involves expressive activity. So it would radically expand Claiborne’s protection of speech, while engaged in
peaceful and lawful protest, from the unlawful acts of
other, to the foreseeable consequence one’s own illegal
actions. Such a rule, if recognized, would harm police
officers, the public, and the rule of law.
As established above, Claiborne did not preclude
liability for consequences of one’s own illegal activity
that lacks First Amendment protection. The Petition
downplays McKesson’s own lawless activity in this
case. See, e.g., Cert. Ptn. i (Question Presented makes
no mention of allegations of Mckesson’s own illegal
acts), 7 (Statement ignores many of Mckesson’s illegal
actions). And instead of focusing on Mckesson’s own
illegal and dangerous activities at issue here, the Petition discusses claimed results in other situations. For
example, though the alleged fact is that “Mckesson led
the protestors to block the public highway,” slip op. 2,
which would be his own negligent, illegal action (not

17

speech or advocacy), the Petition posits concerns about
those engaged in a lawful demonstration “straying onto
a public road” or “veer[ing] onto a highway,” Cert. Ptn.
24. Inadvertent straying or veering simply are not at
issue here, just as the situation in Claiborne is not at
issue. Here, the Fifth Circuit held that where a demonstration leader himself violates the law in a negligent
manner by leading protestors onto a highway, he may
be held liable under the ordinary tort law for negligence.
Based on such a non-factual, overbroad focus, the
Petition advocates for a broad rule based on the purported need to protect First Amendment activity. But
protected First Amendment activity requires no special
protection here because it is not at issue. The rule, as
the Petition would have it, is this: A person who himself commits an unpeaceful, illegal, and dangerous act
(which is not protected by the First Amendment) may
not be held liable for a violent act by a third party that
is a reasonably foreseeable consequence of the original
person’s own illegal act because in Claiborne this Court
held that a person engaging in peaceful, lawful, First
Amendment protected activity could not be liable for
violent acts of third parties unless he authorized, directed, or ratified that specific tortious activity. That is
nonsensical. Under this rule, individuals are free to
engage in unpeaceful, unlawful activities themselves
in connection with demonstrations, with no concern for
ordinary tort liability for the actions of third parties
that are a foreseeable consequence of the original person’s own unpeaceful, unlawful action.
That rule removes the vital function of negligencetort law—discouraging negligence and assigning responsibility for losses to the guilty instead of the in-

18

nocent—when people engage in demonstrations. Under
this purported rule, protest leaders are free to engage
in unpeaceful, illegal, negligent actions themselves,
without the normal concern a citizens should have for
the possible harm to other citizens from the foreseeable
consequences of their own unpeaceful, unlawful, negligent act. This is extremely dangerous to police officers,
who typically bear the brunt of such illegal actions and
its consequences, but also to members of the public
who may be similarly harmed, and to the rule of law
because purported speech protections are asserted to
innoculate wrongdoing.

Conclusion
This Court should deny the petition.
Respectfully submitted,
James Bopp, Jr.
Counsel of Record
Richard E. Coleson
Corrine L. Youngs
Amanda L. Narog
THE BOPP LAW FIRM, PC
The National Building
1 South Sixth Street
Terre Haute, IN 47807
812/232-2434 (telephone)
812/235-3685 (facsimile)
jboppjr@aol.com
Counsel for Amicus Curiae

